Audit Report




OIG-13-008
Audit of the Federal Financing Bank’s Fiscal Years 2012 and
2011 Financial Statements


November 13, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                          DEPARTMENT OF THE TREASURY
                                                 W ASHINGTON, D.C. 20220


                                                    November 13, 2012
     OFFICE OF
INSPECTOR GENERAL




            MEMORANDUM FOR SECRETARY GEITHNER

            FROM:                    Eric M. Thorson
                                     Inspector General

            SUBJECT:                 Audit of the Federal Financing Bank’s Fiscal Years 2012 and 2011
                                     Financial Statements


            I am pleased to transmit the attached audited Federal Financing Bank’s (FFB) financial
            statements for fiscal years 2012 and 2011, as required by the Government Corporation Control
            Act.

            DISCUSSION:

            Under a contract monitored by the Office of Inspector General, KPMG LLP, an independent
            certified public accounting firm, performed an audit of the financial statements of FFB as of
            September 30, 2012 and 2011 and for the years then ended. The contract required that the audit
            be performed in accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting; and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found that the financial statements were fairly presented, in all material
            respects, in conformity with U.S. generally accepted accounting principles. However, KPMG
            LLP identified a significant deficiency related to the fair value reporting of borrowings. Further,
            KPMG LLP found no instances of reportable noncompliance with laws and regulations tested.

            KPMG LLP also issued a management letter dated November 9, 2012, discussing a matter
            involving internal control over financial reporting and its operation that was identified during the
            audit but was not required to be included in the auditors’ reports. This letter will be transmitted
            separately.
Page 2

In connection with the contract, we reviewed KPMG LLP’s reports and related documentation
and inquired of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated November 9, 2012, and the conclusions
expressed in the reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 622-1090, or a member of your staff
may contact Marla A. Freedman, Assistant Inspector General for Audit, at (202) 927-5400.

Attachment

cc:      Mary Miller
         Under Secretary for Domestic Finance

         Joseph I. Lieberman, Chairman
         Committee on Homeland Security
         and Governmental Affairs

         Susan M. Collins, Ranking Member
         Committee on Homeland Security
         and Governmental Affairs

         Darrell E. Issa, Chairman
         Committee on Oversight and
         Government Reform

         Elijah Cummings, Ranking Member
         Committee on Oversight and
         Government Reform
     FEDERAL FINANCING BANK
           Financial Statements

       September 30, 2012 and 2011

(With Independent Auditors’ Report Thereon)
                                     FEDERAL FINANCING BANK


                                             Table of Contents



                                                                            Page

Management’s Discussion and Analysis                                          1

Financial Statements                                                          5

Notes to Financial Statements                                                 8

Other Supplementary Information – Schedule 1                                 19

Independent Auditors’ Report                                                 20

Independent Auditors’ Report on Internal Control Over Financial Reporting    21

Independent Auditors’ Report on Compliance and Other Matters                 24
                                    FEDERAL FINANCING BANK
                                 Management’s Discussion and Analysis
                                      September 30, 2012 and 2011



Introduction

The Federal Financing Bank (the Bank) is a government corporation under the general supervision and
direction of the Secretary of the Treasury. The Congress created the Bank in 1973, at the request of the
U.S. Department of the Treasury (Treasury). The Bank actively borrows from Treasury and lends to
Federal agencies and private borrowers that have Federal guarantees. The Bank also has a debt obligation
to the Civil Service Retirement and Disability Fund.

Mission

The mission of the Bank is to reduce the costs of Federal and federally assisted borrowings, to coordinate
such borrowings with the Government’s overall fiscal policy, and to ensure that such borrowings are done
in ways that least disrupt private markets. To accomplish this mission, the Bank exercises its broad
statutory authority to purchase obligations issued, sold, or guaranteed by Federal agencies.

Objectives

The Bank was formed to be the vehicle through which Federal agencies finance programs involving the
sale or placement of credit market instruments, including agency securities, guaranteed obligations,
participation agreements, and the sale of assets. This principle is applied in a manner consistent with the
Federal Financing Bank Act of 1973 (12 U.S.C. 2281 et seq.) and its legislative history. Guaranteed
programs entailing large numbers of relatively small loans in which local origination and servicing are an
integral part of the program are excluded.

The Bank makes funds available to Federal agencies and to guaranteed borrowers in accordance with
program requirements. The Bank is capable of providing a lending rate for any amount required and for
nearly any maturity. The rates charged by the Bank for terms such as prepayment provisions and pass-
through of service charges are applied consistently for all borrowers.

The lending policy of the Bank is flexible enough to preclude the need for any accumulation of pools of
funds by agencies. This does not exclude the maintenance of liquidity reserves for those agencies that have
such a need. In no case will funds provided by the Bank be invested in private credit instruments or be used
to speculate in the market for public securities.

Organizational Structure

The Bank is subject to the general supervision and direction of the Secretary of the Treasury. The Board of
Directors is comprised of the incumbents of the following Treasury offices: the Secretary of the Treasury,
who as provided by law, is the Chairman; the Deputy Secretary; the Under Secretary for Domestic
Finance; the General Counsel; and the Fiscal Assistant Secretary.

The officers are incumbents of the following Treasury offices (corresponding Bank positions are in
parentheses): the Under Secretary for Domestic Finance (President); the General Counsel (General
Counsel); the Assistant Secretary for Financial Markets (Vice President); the Fiscal Assistant Secretary
(Vice President); the Deputy Assistant Secretary for Government Financial Policy (Vice President and
Treasurer); and the Director, Office of Federal Lending (Secretary and Chief Financial Officer). A

                                                     1
                                    FEDERAL FINANCING BANK
                                 Management’s Discussion and Analysis
                                      September 30, 2012 and 2011



delegation by the Bank President authorizes any Bank Vice President, in consultation with any other Bank
officer, to exercise the powers of the Presidency.

The staff of the Bank is organized into three units: loan administration, loan accounting, and computer
support. The loan administration and accounting managers and the Chief Information Officer (CIO) report
to the Chief Financial Officer (CFO). The loan administration manager is responsible for the loan
administration unit, which includes the duties and responsibilities associated with credit analysis, loan
origination, loan structuring, and customer service. The loan accounting manager heads a team of
professionals responsible for loan disbursements, repayments, accounting, and financial reporting. The
CIO is responsible for a team of information systems professionals and contractors that conduct in-house
software development and maintain the Bank’s Oracle®-based, mission-critical enterprise application. That
application provides systems support for the loan administration and accounting functions.

Loan Programs Activity

 Under a provision in the 1987 enabling legislation for the U.S. Department of Agriculture’s Rural Utilities
Services (RUS) Cushion of Credit Payments Program (cushion of credit), the Bank receives considerably
less interest each year on certain RUS loans that it holds than it is contractually entitled to receive. The
shortfall in interest received by the Bank has resulted in substantial deficits in the past. The cumulative
losses from interest credits taken by the RUS, beyond losses that were extinguished by appropriation in a
previous year, totaled $2,080,431 thousand through September 30, 2012. The interest shortfall is recorded
on the statement of operations and changes in net position as a legislatively mandated interest credit
(contra-revenue to interest on loans).

The Balanced Budget and Emergency Deficit Control Act of 1985, commonly known as
Gramm-Rudman-Hollings Act, the Consolidated Omnibus Budget Reconciliation Act of 1985, and the
Federal Credit Reform Act of 1990 included provisions that have acted as prohibitions and disincentives
against the Bank financing certain loans that are 100 percent guaranteed by Federal agencies.

Section 6102 of the Food, Conservation, and Energy Act of 2008 reinstated the direct loan program for the
RUS Electric Program, eliminating the borrower’s right to have loans financed by the Bank. Eventually,
RUS anticipates financing new electric loans through a direct loan program instead of financing the loans
through the Bank.

Impact of Economic Conditions

Current economic conditions have had an impact on programs that borrow from the Bank. Certain
borrowers have repaid their loans with the Bank early, while other borrowers have increased their
borrowing activities with the Bank.

All FFB assets are, or have a commitment to be, full faith and credit obligations of the U.S. Government
and economic conditions do not affect repayments to the Bank. Loans backed by the full faith and credit of
the U.S. Government are the credit equivalent of Treasury securities. The Bank does not expect to suffer
any credit losses from loans backed by the full faith and credit of the U.S. Government.



                                                 2
                                    FEDERAL FINANCING BANK
                                  Management’s Discussion and Analysis
                                       September 30, 2012 and 2011



United States Postal Service

The United States Postal Service (USPS) is an independent establishment of the executive branch of the
U.S. Government, which borrows from the Bank to finance its capital improvements and defray operating
expenses. The USPS is limited by statute to net annual debt increases of $3 billion with a total borrowing
authority of $15 billion. USPS borrowed up to the maximum debt ceiling on September 28, 2012. USPS
repaid $1.5 billion of the outstanding amount on October 1, 2012. The outstanding balance was further
reduced to $11.8 billion on October 11, 2012. USPS can be expected to borrow up to the ceiling amount at
different times in the coming year.

The USPS had a fiscal year 2012 deficit due to a decline in mail volume. As a result, the USPS was unable
to make payments for legislatively mandated prefunding of retiree health benefits. However, relieving
USPS of the obligation to prefund retiree health benefits will not, in and of itself, resolve the current and
long-term financial issues of the USPS. The Administration, Congress, and other stakeholders are aware of
the current and long-term financial issues of USPS. Congress is considering legislative solutions that it
believes will return the USPS to financial stability if enacted.

The Bank has not incurred any credit-related losses on its loans as of the date of these statements, and as
stated above, all Bank assets are, or have a commitment to be, full faith and credit obligations of the U.S.
Government.

Financial Highlights

Statements of Operations and Changes in Net Position Highlights

The following is a synopsis of the financial performance of the Bank for the fiscal year ended
September 30, 2012. Interest on loans of $2,642,121 thousand for the fiscal year ended September 30, 2012
increased compared to the interest on loans of $2,319,867 thousand for the fiscal year ended September 30,
2011, due to the increase in the total loans receivable balance primarily due to the increase in borrowing by
the Department of Energy (DOE) and RUS. The legislatively mandated interest credits reduced interest
income by $158,794 thousand and $249,813 thousand for the fiscal years ended September 30, 2012 and
2011, respectively, and are related to RUS “cushion of credit” loans. Revenue from servicing loans of
$1,493 thousand for the fiscal year ended September 30, 2012 decreased from $2,120 thousand for the
fiscal year ended September 30, 2011 due to the maturity of the loans being serviced.

Interest on borrowings of $2,176,933 thousand for the fiscal year ended September 30, 2012 increased
from the interest on borrowings of $1,860,498 thousand for the fiscal year ended September 30, 2011
primarily due to the change in repayment structure resulting from the borrowing agreement with the
Secretary of the Treasury. After administrative expenses of $5,387 thousand, net income of
$302,788 thousand for the fiscal year ended September 30, 2012 increased from the net income of
$206,769 thousand for the fiscal year ended September 30, 2011.

Statements of Financial Position Highlights

Funds with U.S. Treasury (cash equivalents) amounted to $716,258 thousand at September 30, 2012,
which represents a decrease from the September 30, 2011 balance of $841,853 thousand. The cash balance
declined due to timing of repayments.
                                                  3
                                    FEDERAL FINANCING BANK
                                 Management’s Discussion and Analysis
                                      September 30, 2012 and 2011



The loan portfolio (loans receivable) increased $10,774,717 thousand from $57,087,892 thousand at
September 30, 2011 to $67,862,609 thousand at September 30, 2012. The change is primarily the result of
a $3,572,023 thousand increase in loan activity to RUS, $5,242,027 thousand increase in new loans to
DOE, $1,999,600 thousand increase in new loans to the USPS and other loan activity. The Bank’s net
position increased to $4,302,103 thousand at September 30, 2012 from $3,999,315 thousand at
September 30, 2011 primarily as a result of positive earnings.

All of the loans in the Bank’s portfolio are federally guaranteed or have a commitment to be full faith and
credit obligations of the United States. The Bank’s borrowings increased by $10,490,827 thousand due to
increased lending activities.

Performance Highlights

During fiscal year 2012, the Bank processed 1,552 new loan requests. The interest rate was set or reset on
2,941 loans in fiscal year 2012 for new loans and maturity extensions. The Bank processed 78 prepayments
and 26,704 loan payments in fiscal year 2012.

Management Controls

The Bank completed an in-depth testing of its internal accounting and administrative control procedures in
accordance with OMB Circular No. A-123, Management’s Responsibility for Internal Control, as of
June 2012. Additionally, in fiscal year 2009, a private contractor performed a certification and
accreditation of the Bank’s enterprise management system, known as the Loan Management Control
System (LMCS), which is effective for three years. Future LMCS certifications will be included with
Treasury’s certifications.

Accordingly, we believe that the Bank’s systems of internal accounting and administrative controls fully
comply with the requirements for agency internal accounting and administrative control systems, providing
reasonable assurance that they are achieving the intended objectives.




                                                 4
                                           FEDERAL FINANCING BANK
                                           Statements of Financial Position
                                            September 30, 2012 and 2011
                                                (Dollars in thousands)


                                  Assets                                        2012            2011
Funds with U.S. Treasury                                                  $      716,258         841,853   
Investments held-to-maturity (fair value of $493,404 and
        $493,194, notes 3 and 6)                                                 493,446         493,254   
Loans receivable (notes 4, 6, and 9)                                          67,862,609      57,087,892   
Accrued interest receivable                                                      466,149         151,227   
Advances to others                                                                    55              66   
              Total assets                                                $   69,538,517      58,574,292   
                        Liabilities and Net Position
Liabilities:
   Borrowings:
      Principal amount                                                    $   64,776,632      54,250,478   
      Plus unamortized premium                                                   102,454         137,781   
              Total borrowings (notes 5, 6, 8, and 9)                         64,879,086      54,388,259   
  Accrued interest payable                                                       357,163         186,291   
  Other liabilities                                                                  165             427   
              Total liabilities                                               65,236,414      54,574,977   
Loan and interest credit commitments (notes 10 and 1(j))
Net position (note 7)                                                          4,302,103       3,999,315   
              Total liabilities and net position                          $   69,538,517      58,574,292   


See accompanying notes to financial statements.




                                                          5
                                       FEDERAL FINANCING BANK
                              Statements of Operations and Changes in Net Position
                                   Years ended September 30, 2012 and 2011
                                                (Dollars in thousands)


                                                                               2012              2011
Revenue and financing sources:
  Interest on loans                                                      $    2,642,121         2,319,867   
  Less legislatively mandated interest credit                                  (158,794)         (249,813)  
              Net interest on loans                                           2,483,327         2,070,054   
  Interest on investments                                                              288            492   
  Revenue from servicing loans                                                       1,493          2,120   
              Total revenue                                                   2,485,108         2,072,666   
Expenses:
  Interest on borrowings                                                      2,176,933         1,860,498   
  Administrative expenses                                                         5,387             5,399   
              Total expenses                                                  2,182,320         1,865,897   
              Net income                                                 $      302,788          206,769   
Net position:
  Beginning of year                                                      $    3,999,315         3,793,194   
  Net income                                                                    302,788           206,769   
  Loss on extinguishment of borrowings treated as
     capital transactions (note 8)                                                                   (648)  
  End of year (note 7)                                                   $    4,302,103         3,999,315   


See accompanying notes to financial statements.




                                                          6
                                           FEDERAL FINANCING BANK
                                               Statements of Cash Flows
                                        Years ended September 30, 2012 and 2011
                                                 (Dollars in thousands)


                                                                                      2012               2011
Cash flows from operating activities:
  Net income                                                                $          302,788            206,769   
  Adjustments to reconcile net income to net cash provided
     by operations:
        Amortization of premium on borrowings                                          (35,327)           (42,226)  
        Capitalization of interest receivable                                          (58,345)            (9,332)  
        Capitalization of interest payable                                             129,344            184,037   
        (Increase) Decrease in accrued interest receivable                            (314,922)             4,462   
        Decrease in advances to others                                                      11                 40   
        Increase (Decrease) in accrued interest payable                                170,872            (27,984)  
        (Decrease) Increase in other liabilities                                          (262)               220   
              Net cash provided by operating activities                                194,159            315,986   
Cash flows from investing activities:
  Investment purchases                                                                    (192)              (640)  
  Loan disbursements                                                              (654,980,692)      (594,804,927)  
  Loan collections                                                                 644,264,320        597,034,658   
              Net cash (used in) provided by investing activities                  (10,716,564)         2,229,091   
Cash flows from financing activities:
  Borrowings                                                                       654,980,885        594,805,568   
  Repayments of borrowings                                                        (644,584,075)      (598,179,887)  
              Net cash provided by (used in) financing activities                   10,396,810         (3,374,319)  
              Net decrease in cash                                                    (125,595)          (829,242)  
Funds with U.S. Treasury – beginning of the period                                     841,853          1,671,095   
Funds with U.S. Treasury – end of the period                                $          716,258            841,853   
Supplemental disclosures of cash flow information:
  Interest paid (net of amount capitalized)                                 $        1,876,620          1,730,674   
Supplemental schedule of noncash investing and financing activities:
  Loss on early extinguishment of borrowings treated as
     capital transactions (note 8)                                          $                —               (648)  


See accompanying notes to financial statements.




                                                              7
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2012 and 2011
                                             (Dollars in thousands)



(1)   Summary of Significant Accounting Policies
      The Federal Financing Bank (the Bank) was created by the Federal Financing Bank Act of 1973
      (12 USC 2281) as an instrumentality of the U.S. Government and a body corporate under the general
      supervision of the Secretary of the Treasury (the Secretary). The budget and audit provisions of the
      Government Corporation Control Act are applicable to the Bank in the same manner as they are applied to
      other wholly owned government corporations.

      The Bank was established by Congress at the request of the U.S. Department of the Treasury (Treasury), in
      order “to assure coordination of Federal and federally assisted borrowing programs with the overall
      economic and fiscal policies of the U.S. Government, to reduce the cost of Federal and federally assisted
      borrowing from the public, and to assure that such borrowings are financed in a manner least disruptive of
      private financial markets and institutions.” The Bank was given broad statutory authority to finance
      obligations issued, sold, or guaranteed by Federal agencies so that the Bank could meet these debt
      management objectives.

      The Bank is authorized to issue obligations to the public in amounts not to exceed $15,000,000 with the
      approval of the Secretary. Additionally, the Bank is authorized to issue obligations in unlimited amounts to
      the Secretary and, at the discretion of the Secretary, may agree to purchase any such obligations.

      (a)   Basis of Presentation
            The Bank has historically prepared its financial statements in accordance with accounting principles
            generally accepted in the United States of America (GAAP), based on standards issued by the
            Financial Accounting Standards Board (FASB), the private-sector standards-setting body. The
            Federal Accounting Standards Advisory Board (FASAB) has indicated that financial statements
            prepared based upon standards promulgated by the FASB may also be regarded as in accordance
            with GAAP for those Federal entities, such as the Bank, that have issued financial statements based
            upon FASB standards in the past. Accordingly, consistent with historical reporting, the Bank’s
            financial statements are presented in accordance with accounting and financial reporting standards
            promulgated by the FASB.

      (b)   Basis of Accounting
            The financial statements are presented on the accrual basis of accounting. The Bank recognizes loans
            when they are issued and related repayments when they are received. The Bank recognizes
            investments when they are made and investment redemptions when the proceeds are received. The
            Bank recognizes borrowings when they are received and repayments when they are made. In
            addition, the Bank recognizes interest on loans, interest on investments, and revenue from servicing
            loans when they are earned and recognizes interest on borrowings and expenses when they are
            incurred.

      (c)   Funds with U.S. Treasury
            As a government corporation, the Bank maintains a Fund Balance with Treasury and does not hold
            cash. For the purposes of the statements of cash flows, the funds with Treasury are considered cash.

                                                        8                                            (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2012 and 2011
                                        (Dollars in thousands)



(d)   Investments
      The Bank’s investments consist of investments in U.S. Treasury securities for the Home Ownership
      Preservation Entity (HOPE) Fund. The securities are categorized as held to maturity, because the
      Bank has the ability and intent to hold the securities until maturity. The securities are recorded at par
      value.

(e)   Loans Receivable
      The Bank issues loans to Federal agencies for their own use or to private sector borrowers whose
      loans are guaranteed by a Federal agency. When a Federal agency has to honor a guarantee because a
      private sector borrower defaults, the Federal agency must obtain an appropriation or use other
      resources to pay the Bank. All Bank assets are, or have a commitment to be, full faith and credit
      obligations of the U.S. Government. Accordingly, the Bank has not recorded a reserve for default on
      any loans receivable.

      The Bank has not incurred any credit-related losses on its loans as of the date of these statements.

(f)   Interest on Loans
      The Bank’s general policy is to capture the liquidity premium between Treasury securities and the
      private sector lending rates, and to charge a rate that reflects the risk inherent in a borrower or
      transaction, when such a rate will accomplish a broader goal. The income resulting from the interest
      spread covers the administrative expenses of the Bank. Under amendments to the Federal Credit
      Reform Act (FCRA), effective October 1, 1998, while the Bank is permitted to charge a spread on
      new lending arrangements with government-guaranteed borrowers, the margin is not retained by the
      Bank, but rather is retained by the loan guarantor. In the event that this results in the Bank being
      unable to fund its administrative expenses related to these loans, the FCRA, as amended, states that
      the Bank may require reimbursement from loan guarantors.

(g)   Capitalized Interest
      In accordance with their loan agreements with the Bank, the General Services Administration (GSA),
      Historically Black Colleges and Universities (HBCU), Veteran Administration Transitional Housing
      (VATH), and Department of Energy (DOE) have the option of deferring payments of interest on
      their loans until future periods. When GSA, HBCU, VATH, or DOE elect, in advance, to defer
      interest payments, the accrued interest is recorded as capitalized interest receivable and added to the
      respective loan balance by the Bank. The Bank correspondingly capitalizes the interest payable on its
      related non-FCRA borrowings.

      The loans receivable due within a year for September 30, 2011 was revised to include capitalized
      interest for comparative purpose in Note 4.




                                                   9                                              (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2012 and 2011
                                        (Dollars in thousands)



(h)   Premium on Borrowings
      The Bank amortizes the premium on borrowings using the effective-interest method. The
      amortization is recorded as part of interest on borrowings on the statements of operations and
      changes in net position.

(i)   Interest on Borrowings from Treasury to Fund Amounts Treated as Lending to Financing
      Accounts
      The interest on borrowings from Treasury is based on the daily Treasury New Issue Curve (TNIC)
      for all borrowings, except for borrowings used to fund certain guaranteed loans that require the
      guaranteeing federal agencies to comply with the FCRA (2U.S.C. 661(d)(3)). The interest rate,
      interest payable, and interest expense for borrowings from Treasury that are used to fund certain
      guaranteed loans subject to FCRA are determined annually by the borrowing agencies using the
      FCRA and Office of Management and Budget guidelines.

(j)   Legislatively Mandated Interest Credit
      In prior years, the Bank purchased certificates of beneficial ownership (i.e., loans reported as loans
      receivable on the statement of financial position) from the U.S. Department of Agriculture’s Rural
      Utilities Services (RUS). RUS used the funds received from the Bank to issue loans to nonfederal
      entities, specifically private utility companies. In 1987, Congress passed legislation (i.e., 7 USC Sec.
      940c – Cushion of Credit Payments Program) that required RUS to develop and promote a program
      to encourage private utility companies to voluntarily make deposits into cushion of credit accounts
      established within RUS. The legislation also indicated that private utility companies may reduce the
      balance of their cushion of credit account only if the reduction is used to make scheduled payments
      on loans received from RUS. In accordance with the legislation, the private utility companies accrue
      interest at the higher of 5% per annum or the weighted average rate of the certificates of beneficial
      ownership on cash deposited into the cushion of credit accounts with RUS. The legislation also
      indicated that RUS shall receive an interest credit from the Bank equal to the amount of interest RUS
      pays to the private utility companies. The Bank records the interest credit in the period the cost is
      incurred as a legislatively mandated interest credit (contra-revenue to interest on loans) in the
      statements of operations and changes in net position.

(k)   Revenue from Servicing Loans
      The Bank charges certain RUS borrowers a loan service fee that is reported as revenue from
      servicing loans on the statements of operations and changes in net position. The Bank’s loan
      servicing fee is equal to one-eighth of one percent more than the contractual interest rate with
      Treasury.

(l)   Administrative Expenses
      The Bank is subject to the general supervision and direction of the Secretary. As provided by law,
      the Secretary acts as chairman of the Board of Directors. Employees of Treasury’s Departmental
      Offices perform the Bank’s management and accounting functions, and its legal counsel is the
      General Counsel of the Treasury. The Bank reimburses Treasury for the facilities and services it
                                                  10                                             (Continued)
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2012 and 2011
                                              (Dollars in thousands)



            provides. The amounts of such reimbursements are reported as administrative expenses in the
            statements of operations and changes in net position.

      (m)   Net Position
            The Bank can borrow from Treasury to meet its immediate cash needs and can also seek
            appropriations from Congress to make up for accumulated losses that will not be met by income.

      (n)   Loan Commitments
            The Bank recognizes loan commitments when the Bank and the other parties fully execute the
            promissory notes and reduces loan commitments when the Bank issues loans or when the
            commitments expire. Most obligations of the Bank give a borrower the contractual right to a loan or
            loans immediately or at some point in the future. The Bank limits the time available for a loan under
            an obligation, where applicable.

      (o)   Management’s Use of Estimates
            The preparation of financial statements in conformity with GAAP requires management to make
            estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
            contingent assets and liabilities at the date of the financial statements and the reported amounts of
            income and expenses during the reporting period. The significant estimates made by management are
            the fair value calculations. Actual results could differ from those estimates.

      (p)   Tax-Exempt Status
            The Bank is exempt from tax in accordance with Section 11(a) of the Federal Financing Bank Act of
            1973 (12 USC 2281).

      (q)   Related Parties
            The Bank conducts most of its financial transactions with other Federal entities, and therefore, the
            financial statement balances that represent transactions with other Federal entities include all assets;
            liabilities, except borrowings from the public; revenues; and expenses.

(2)   Accounting Pronouncement
            On May 17, 2011, FASB issued ASU No. 2011-04, FASB ASC 820, Fair Value Measurement and
            Disclosures (precodification FASB SFAS No. 157, Fair Value Measurements, as amended). The
            ASU explains how to measure fair value. The disclosures are effective for reporting periods
            beginning after December 15, 2011. The Bank adopted the applicable provisions of FASB ASU
            No. 2011-04 in fiscal year 2012. The adoption did not have an effect on the financial statements.
(3)   Investments Held to Maturity (the HOPE Bond Transaction)
      The Secretary is authorized to issue up to $300,000,000 HOPE bonds under the HOPE for Homeowners
      Act of 2008, and the Bank will purchase the HOPE bonds issued by the Secretary. The HOPE bonds
      purchased by the Bank are reported as investments held-to-maturity, and the related interest receivable is

                                                        11                                             (Continued)
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2012 and 2011
                                             (Dollars in thousands)



      reported as accrued interest receivable in the Bank’s statements of financial position. The interest rate is
      0.103% and 0.010% as of September 30, 2012 and 2011, respectively, with floating interest rates reset
      quarterly. The bonds have 30-year maturity dates starting on August 27, 2038 and ending on July 15, 2042.

      The carrying amount, unrealized holding losses, and fair value of the HOPE bonds at September 30, 2012
      and 2011 were as follows:
                                                                             Unrealized
                 September 30, 2012                      Carrying             holding               Fair
      Investments held to maturity:                       amount               losses               value
         U.S. Treasury Nonmarketable
           Securities – HOPE Bonds                 $        493,446                  (42)            493,404   
                    Total                          $        493,446                  (42)            493,404   

                                                                             Unrealized
                 September 30, 2011                      Carrying             holding               Fair
      Investments held to maturity:                       amount               losses               value
         U.S. Treasury Nonmarketable
           Securities – HOPE Bonds                 $        493,254                  (60)            493,194   
                    Total                          $        493,254                  (60)            493,194   


      The Bank borrowed funds from Treasury at the same terms to purchase the HOPE bonds.

(4)   Loans Receivable
      Loans receivable represent the outstanding balances being treated as loans to agencies. The Bank has the
      ability and intends to hold loans receivable until maturity or payoff. At September 30, 2012, the Bank had
      outstanding loans receivable of $67,862,609. Certain of these loans were funded using FCRA borrowing
      procedures. The outstanding amount of loans funded using FCRA borrowing procedures was $17,184,592
      with interest rates ranging from .095% to 4.707% and maturity dates ranging from October 1, 2012 to
      December 31, 2046. The remaining non-FCRA loans receivable of $50,678,017 had interest rates ranging
      from .095% to 12.405% and maturity dates ranging from October 1, 2012 to July 17, 2045.

      At September 30, 2011, the Bank had outstanding loans receivable of $57,087,892. The outstanding
      amount of loans funded using FCRA borrowing procedures was $9,237,969 with interest rates ranging
      from .011% to 4.707% and maturity dates ranging from January 03, 2012 to January 02, 2046. The
      remaining non-FCRA loans receivable of $47,849,923 had interest rates ranging from 0.010% to 13.935%
      and maturity dates ranging from October 1, 2011 to July 17, 2045.




                                                       12                                            (Continued)
                                        FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2012 and 2011
                                              (Dollars in thousands)



      Loans receivable at September 30, 2012 and 2011, consist of the following:

                                   Agency                                        2012                 2011
      Rural Utilities Service, Department of Agriculture                  $    36,603,840           32,503,417   
      U.S. Postal Service                                                      14,999,600           13,000,000   
      Department of Energy                                                     12,170,688            6,928,661   
      Rural Utilities Service, Department of Agriculture
        certificates of beneficial ownership                                    1,146,500            1,674,900   
      General Services Administration                                           1,819,153            1,898,140   
      Historically Black Colleges and Universities, Department
        of Education                                                              928,712              781,750   
      Foreign Military Sales, Department of Defense                               188,397              294,429   
      Veterans Administration Transitional Housing Program                          4,723                4,780   
      Small Business Administration                                                    60                  578   
      Federal Railroad Administration, Department
        of Transportation                                                             936                1,237   
                     Total loans receivable                               $    67,862,609           57,087,892   



            The loans receivable due within one year are $16,040,021 and $12,558,280 as of September 30, 2012
            and 2011, respectively. The loans receivable due within a year for September 30, 2011 was revised
            to include capitalized interest for comparative purpose.

(5)   Borrowings
      Under the FFB Act, the Bank may, with the approval of the Secretary, borrow without limit from the
      Treasury.

      For certain borrowings used to fund certain guaranteed loans based on FCRA, the interest rate is
      determined annually by the borrowing agencies using FCRA and Office of Management and Budget
      guidelines. At September 30, 2012, the Bank had $17,121,965 of Treasury borrowings used to fund
      guaranteed loans based on FCRA with interest rates ranging from 1.000% to 4.723%, and a maturity date
      of September 30, 2050. Under FCRA borrowing procedures, borrowings from Treasury do not capitalize
      interest.

      For the Bank’s non-FCRA borrowings, repayments on Treasury borrowings generally match the terms and
      conditions of corresponding loans made by the Bank and bear interest at the respective rate, as determined
      by the Secretary, and are repayable at any time, except for loans with fixed-price call options in the no-call
      period. In November 2004, certain borrowings from Treasury were refinanced under a debt limit
      transaction. At September 30, 2012, the Bank had $40,543,098 of Treasury borrowings for non-FCRA
      related loans, with interest rates ranging from .051% to 8.961%, and maturity dates from October 1, 2012
      to December 31, 2046.



                                                        13                                             (Continued)
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2012 and 2011
                                              (Dollars in thousands)



      At September 30, 2011, the Bank had $9,230,123 of Treasury borrowings used to fund guaranteed loans
      based on FCRA with interest rates ranging from 1.600% to 4.723% and a maturity date of September 30,
      2050. Treasury borrowings for non-FCRA related loans of $36,578,875, with interest rates ranging from
      0.000% to 8.961%, and maturity dates from October 3, 2011 to January 2, 2046.

      Finally, at September 30, 2012 and 2011, the Bank had borrowings of $7,111,559 and $8,441,480,
      respectively, and an associated unamortized premium of $102,454 and $137,781, respectively, from the
      Civil Service Retirement and Disability Fund, which is administered by the Office of Personnel
      Management. At September 30, 2012, these borrowings were at a stated interest rate of 4.625%, effective
      interest rate of 4.625%, and with maturity dates ranging from June 30, 2013 to June 30, 2019. At
      September 30, 2011, these borrowings were at stated interest rates 4.625%, effective interest rate of
      4.625%, and with maturity dates ranging from June 30, 2012 to June 30, 2019. Borrowing from the public
      amounted to $10 at September 30, 2012 and 2011.

      The scheduled principal repayments below reflect maturities of the Bank’s borrowings and do not
      necessarily match the maturities of assets in the Bank’s loan portfolio. Scheduled principal repayments of
      borrowings as of September 30, 2012 are as follows:
                           Repayment date                                        Amount
                             2013                                         $    15,481,615    
                             2014                                               4,083,913    
                             2015                                               2,826,250    
                             2016                                               3,349,178    
                             2017                                               2,471,306    
                             2018 and thereafter                               36,564,370    
                                         Total principal payments              64,776,632    
                                         Plus unamortized premium                  102,454    
                                         Total borrowings                 $    64,879,086    


(6)   Fair Value of Financial Instruments and Interest Rate Volatility
      (a)   Fair Value Hierarchy
            The accounting standards establish a fair value hierarchy that prioritizes the inputs to valuation
            techniques used to measure fair value. The hierarchy gives the highest priority to unadjusted quoted
            prices in active markets for identical assets or liabilities (Level 1 measurements) and the lowest
            priority to measurements involving significant unobservable inputs (Level 3 measurements). The
            three levels of the fair value hierarchy are as follows:

            •   Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or liabilities
                that the Bank has the ability to access at the measurement date.
            •   Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable for
                the asset or liability, either directly or indirectly.

                                                        14                                             (Continued)
                                  FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2012 and 2011
                                        (Dollars in thousands)



      •   Level 3 inputs are unobservable inputs for the asset or liability.

      The level in the fair value hierarchy within which a fair value measurement in its entirety falls is
      based on the lowest level input that is significant to the fair value measurement in its entirety.

      The Bank does not hold any financial instruments that are measured at fair market value on a
      recurring basis or for which the fair value option has been elected at September 30, 2012 and 2011.

      All the fair values shown in this note are performed using Level 2 inputs at September 30, 2012 and
      2011. The Bank’s fair value measurements maximize the use of observable inputs and do not use
      unobservable inputs (Level 3).

      The financial statements as of and for the year ended September 30, 2012 and 2011 do not include
      any nonrecurring fair value measurements relating to assets or liabilities for which the Bank has
      adopted the provisions of FASB ASC 820.

(b)   Fair Value of Financial Instruments
      The following table presents the carrying amounts and estimated fair values of the Bank’s financial
      instruments at September 30, 2012 and 2011. The fair value of a financial instrument is the amount
      that would be received to sell an asset or paid to transfer a liability in an orderly transaction between
      market participants at the measurement date.

                                                        2012                              2011
                                                               Fair value                        Fair value
                                            Carrying            (Level 2       Carrying           (Level 2
                                            amount               inputs)       amount              inputs)
      Financial assets:
        Investments held to
           maturity                    $      493,446             493,404         493,254           493,194  
        Loans receivable                   67,862,609          76,128,482      57,087,892        64,744,775  
      Financial liabilities:
        Borrowings                     $ 64,879,086            73,351,618      54,388,259        60,595,936  


      The carrying amounts shown in the table are included in the statements of financial position under
      the indicated captions.

      The fair values of the financial instruments shown in the above table as of September 30, 2012 and
      2011 represent management’s best estimates of the amounts that would be received to sell those
      assets or that would be paid to transfer those liabilities in an orderly transaction between market
      participants at that date. Those fair value measurements maximize the use of observable inputs.



                                                   15                                              (Continued)
                           FEDERAL FINANCING BANK
                             Notes to Financial Statements
                             September 30, 2012 and 2011
                                 (Dollars in thousands)



The following methods and assumptions were used to estimate the fair value of each class of
financial instruments:

     Funds with U.S. Treasury: The carrying amount approximates fair value because of the liquid
     nature of the funds with Treasury.
     Loans Receivable and Investments held-to-maturity: The fair value for the majority of the
     loan portfolio (approximately 99.7%) and investments held-to-maturity is determined using
     discounted cash flow analyses based on contractual repayment terms. The Bank’s loans
     receivable, investments held-to-maturity, and interest are backed, or have a commitment to be
     backed, by the full faith and credit of the U.S. Government. As such, the Bank’s assets are the
     equivalent of Treasury securities. The discount rates used in the loans receivable and
     investment analysis are based on interest rates currently being offered by the Bank on loans of
     similar maturity and other characteristics, plus 25 basis points added as a factor to account for
     the liquidity premium. The Bank obtains the discount rates from the daily TNIC, which is
     created daily with an interest rate for each day from 1 month to 30 years, based on the bid
     yields that day for Treasury securities traded in the public markets. The TNIC yields represent
     Treasury’s best estimate of its own cost of borrowing for any given term on that business day.
     For the rest of the loan portfolio (approximately 0.3%), the Bank’s borrowers purchased a call
     option at the loan origination date. For the loans that have aged past the first available call
     date, the fair value is determined as the remaining balance plus the fixed call premium in effect
     at the time of valuation. For the loans with call options that have not reached the first call date,
     the fair value is determined by evaluating each loan through a call option model using the
     interest rates from the daily TNIC plus 25 basis points and the same terms in effect for a new
     comparable loan.

     Borrowings: The fair value for all borrowings, except for borrowings used to fund certain
     guaranteed loans based on the FCRA, is determined using discounted cash flow analyses
     based on contractual repayment terms. The discount rates used in the borrowings analysis are
     based on interest rates of current borrowings from Treasury using similar maturity and other
     characteristics, plus 25 basis points added as a factor to account for the liquidity premium. The
     Bank obtains the discount rates from the daily TNIC.
     Fair value for borrowings used to fund certain guaranteed loans based on the FCRA is
     determined based on an asset-backed securities model, for which the Bank does not expect to
     exercise the embedded call option. The asset-backed securities model reflects the cash flow
     profile of the respective cohorts and is discounted using interest rates from the daily TNIC,
     plus 25 basis points added as a factor to account for the liquidity premium.
     Advances to Others, Accrued Interest Receivable, Accrued Interest Payable, and Other
     Liabilities: The carrying amount of advances to others, accrued interest receivable, accrued
     interest payable, and other liabilities approximate fair value as they represent the amounts
     expected to be realized or paid and are current assets and liabilities.



                                            16                                              (Continued)
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2012 and 2011
                                             (Dollars in thousands)



      (c)   Interest Rate Volatility
            The fair value of the Bank’s loans receivable, investments, and borrowings changes in response to
            the interest rate volatility that results from the current economic conditions, market perception, and
            expectations. However, because the interest rates and maturities of loans receivable, investments,
            and borrowings are very similar, the fair market values of both assets and liabilities increase or
            decrease in the same direction and in similar amounts.

(7)   Net Position
      At September 30, 2012 and 2011, the net position includes the following:
                                                                                 2012               2011
      Beginning of year                                                $      3,999,315            3,793,194   
      Net Income                                                                302,788              206,769   
      Early extinguishment of borrowings
        treated as capital transactions                                                 —               (648)  
                     Net position                                      $      4,302,103            3,999,315   


(8)   Loss on Extinguishment of Borrowings Treated as Capital Transactions
      In fiscal year 2012, the Bank did not make an early repayment of debt to the Secretary. In fiscal year 2011,
      the Bank made early repayments to the Treasury totaling $902,906, resulting in a net loss of $648. The
      repayment represents a capital transaction, and the loss with Treasury is reported as a loss on
      extinguishment of borrowings treated as capital transaction on the statements of operations and changes in
      net position.

(9)   Capitalized Interest

      Capitalized interest receivable was approximately $68,588 and $12,714, and the related capitalized interest
      payable was $530,176 and $551,370 as of September 30, 2012 and 2011, respectively. Capitalized interest
      receivable and payable are reported as part of the loans receivable and borrowing balances, respectively, on
      the statements of financial position. The large difference between capitalized interest receivable and
      capitalized interest payable is due to the effects of a debt limit transaction on November 15, 2004. This
      transaction altered the structure of existing debt and caused capitalized interest to accrue.




                                                       17                                            (Continued)
                                      FEDERAL FINANCING BANK
                                        Notes to Financial Statements
                                        September 30, 2012 and 2011
                                            (Dollars in thousands)


(10) Loan Commitments
     The Bank makes loan commitments to extend credit to Federal program agencies based on the loan
     agreements executed between the parties. The loan commitments are not reported on the statements of
     financial position and generally have fixed expiration dates or other termination clauses. Since many of the
     loan commitments are expected to expire without being completely drawn upon, the total loan commitment
     amounts do not necessarily represent future cash requirements. The Bank uses the same credit policies in
     making loan commitments as it does for loans receivable reported on the statements of financial position.
     The Bank funds the loan commitments with its borrowing authority from the Secretary. There is no
     exposure or credit risk related to these commitments.

     The contract amounts and remaining loan commitments by program agency as of September 30, 2012, are
     as follows:

                                                                              Contract        Remaining loan
                                 Agency                                       amounts          commitments
     Department of Education – FFEL Conduit                             $    60,000,000           60,000,000   
     National Credit Union Administration – CLF                              10,000,000           10,000,000   
     Rural Utilities Service, Department of Agriculture                      27,124,411           10,209,705   
     U.S. Postal Service                                                      9,500,000                  400   
     Department of Energy                                                    17,054,180            5,756,663   
     Historically Black Colleges and Universities,
       Department of Education                                                   396,865             210,205   
     General Services Administration                                             163,200               6,254   
                   Total commitments                                    $   124,238,656          86,183,227    


(11) Subsequent Events
     The Bank has evaluated subsequent events from the statements of financial position date through
     November 9, 2012, the date at which the financial statements were available to be issued, and determined
     there are no other items to disclose.




                                                      18
                                    FEDERAL FINANCING BANK
                              Other Supplementary Information – Schedule 1
                      Unaudited – See Accompanying Independent Auditors’ Report
                                      September 30, 2012 and 2011
                                           (Dollars in thousands)



In prior years, the Federal Financing Bank (the Bank) purchased certificates of beneficial ownership (i.e.,
loans reported as loans receivable on the statement of financial position) from the Rural Utilities Service
(RUS), a component of the U.S. Department of Agriculture. RUS used the funds received from the Bank to
issue loans to nonfederal entities, specifically private utility companies. In 1987, Congress passed
legislation (i.e., 7 USC Sec. 940c Cushion of Credit Payments Program) that required RUS to develop and
promote a program to encourage private utility companies to voluntarily make deposits into cushion of
credit accounts established within RUS. The legislation also indicated that a private utility company may
reduce the balance of its cushion of credit account only if the reduction is used to make scheduled
payments on loans received from RUS. In accordance with the legislation, the private utility companies
accrue interest at a rate of 5% per annum or the weighted average rate of the certificates of beneficial
ownership on cash deposited into the cushion of credit accounts with RUS. The legislation also indicated
that RUS shall receive an interest credit from the Bank equal to the amount of interest RUS pays to the
private utility companies. The Bank records the interest credit in the period the cost is incurred as a
legislatively mandated interest credit (contra-revenue to interest on loans) in the statements of operations
and changes in net position. As of September 30, 2012, the outstanding principal balance of the seven
RUS loans subject to the certificates of beneficial ownership (CBO) legislation totaled $1,146,500, with
interest rates ranging from 7.755% to 12.405 %, and maturity dates ranging from 2013 to 2021. In October
1998, the Bank received an appropriation that offset the RUS-CBO interest credits by $917,699.

The interest credits that the Bank has provided RUS-CBO through September 30, 2012 are as follows:
                     Fiscal year                                        Interest credits
                     1988–2008                                      $       2,116,975   
                     2009                                                     201,087   
                     2010                                                     271,461   
                     2011                                                     249,813   
                     2012                                                     158,794   
                                   Total interest credits                   2,998,130   
                     Less appropriation                                      (917,699)  
                                   Total                            $      2,080,431    




                                                     19
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

                                         Independent Auditors’ Report

Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:

We have audited the accompanying statements of financial position of the Federal Financing Bank (the
Bank) as of September 30, 2012 and 2011, and the related statements of operations and changes in net
position and cash flows for the years then ended (hereinafter referred to as “financial statements”). These
financial statements are the responsibility of the Bank’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Bank’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.
In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Federal Financing Bank as of September 30, 2012 and 2011, and the results of its
operations and its cash flows for the years then ended in conformity with U.S. generally accepted
accounting principles.
Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the Management’s Discussion and Analysis and other supplementary
information included in Schedule 1 is presented for purposes of additional analysis and is not required as
part of the financial statements. Such information has not been subjected to the auditing procedures applied
in the audits of the basic financial statements, and accordingly, we do not express an opinion or provide
any assurance on them.
In accordance with Government Auditing Standards, we have also issued our reports dated November 9,
2012, on our consideration of the Bank’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.



November 9, 2012

                                                                 20
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2012 and 2011 and the statements of operations and changes in net position, and cash flows
for the years then ended (hereinafter referred to as “financial statements”), and have issued our report
thereon dated November 9, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the Bank is responsible for establishing and maintaining effective internal control over
financial reporting. In planning and performing our fiscal year 2012 audit, we considered the Bank’s
internal control over financial reporting by obtaining an understanding of the design effectiveness of the
Bank’s internal control, determining whether internal controls had been placed in operation, assessing
control risk, and performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the Bank’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of the Bank’s internal control over financial reporting. We did not
test all internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified a certain deficiency in
internal control over financial reporting described in Exhibit I, Improvement Needed over Reporting of
Fair Value Borrowings that we consider to be a significant deficiency in internal control over financial
reporting. A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that
is less severe than a material weakness, yet important enough to merit attention by those charged with
governance.

The Bank’s written response to the significant deficiency identified in our audit is presented in Exhibit I.

                                                                 21
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
We noted certain additional matters that we have reported to management of the Bank in a separate letter
dated November 9, 2012.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 9, 2012




                                                  22
                                                                                                  Exhibit I


Improvement Needed over Reporting of Fair Value Borrowings

The Bank discloses the fair value (FV) of borrowings of $65 billion in note 6 – Fair Value of Financial
Instruments and Interest Rate Volatility – section b. The fair value for all borrowings, except for
borrowings used to fund certain guaranteed loans based on the FCRA, is determined using discounted cash
flow analyses based on contractual repayment terms.

The Bank needs to improve the effectiveness of its controls over the preparation, review and approval of
the FV disclosures. As a result of our test procedures over the calculation of the FV disclosures for
borrowings, we noted 14 instances where the Bank used an incorrect interest rate to perform the FV
calculation, resulting in an understatement of the FV of borrowings. As a result of our observations, the
Bank performed additional analysis over the FV disclosures for Borrowings and adjusted its fiscal year
2012 footnote disclosure over the FV of borrowings accordingly.

OMB Circular A-123, Establishing Management Controls states, “Management is responsible for
developing and maintaining effective internal control. Effective internal control provides assurance that
significant weaknesses in the design or operation of internal control, that could adversely affect the
agency’s ability to meet its objectives, would be prevented or detected in a timely manner.” Additionally,
the Government Accountability Office (GAO) Standards for Internal Control in the Federal Government
states that “Control activities are an integral part of an entity’s planning, implementing, reviewing, and
accountability for stewardship of government resources and achieving effective results. Control activities
occur at all levels and functions of the entity. They include a wide range of diverse activities such as
approvals, authorizations, verifications, reconciliations, and performance reviews.”

Recommendations

We recommend that FFB management implement the following recommendations to improve controls
over the preparation, review and approval of the FV disclosures:

    1) As part of the review procedures over note 4 – Loans Receivable and note 5 – Borrowings, trace
       the minimum and maximum interest rates from the notes to the population of loans/borrowings
       used in the calculation of the fair value;
    2) Apply certain edit checks (e.g., Transactions with 0% interest rates, duplicate entries, or out years
       that seem unusual) to the population of borrowings/loans used in the fair value calculations to
       ensure the population is complete and accurate; and
    3) Refine the sampling procedures currently performed to test the accuracy of the loans/borrowings
       included in the population used for the FV calculation.

Management’s Response

Management concurs with the finding and recommendations.




                                                    23
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2012 and 2011, and the related statements of operations and changes in net position and
cash flows for the years then ended (hereinafter referred to as “financial statements”), and have issued our
report thereon dated November 9, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Bank is responsible for complying with laws, regulations, and contracts applicable
to the Bank. As part of obtaining reasonable assurance about whether the Bank’s financial statements are
free of material misstatement, we performed tests of the Bank’s compliance with certain provisions of
laws, regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, and contracts applicable to
the Bank. However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 9, 2012




                                                                24
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
